   Management Advisory Report



Single Audit of the State of New
Jersey for the Fiscal Year Ended
         June 30, 2013




     A-77-14-00017 | August 2014
Single Audit of the State of New Jersey for the Fiscal Year
Ended June 30, 2013
A-77-14-00017
August 2014                                                            Office of Audit Report Summary

Objective                                Finding

To report internal control weaknesses,   The single audit reported LWD did not submit to SSA the Form
noncompliance issues, and                SSA-871 State Agency Schedule for Equipment Purchases for SSA
unallowable costs identified in the      Disability Programs for the quarters ending September 30, 2012,
single audit to the Social Security      December 31, 2012, March 31, 2013, and June 30, 2013.
Administration (SSA) for resolution
action.                                  Recommendation

Background                               We recommend that SSA verify that LWD implemented
                                         appropriate procedures to ensure timely submission of the Form
KPMG LLP and the New Jersey State        SSA-871.
Auditor conducted the single audit of
the State of New Jersey. SSA is
responsible for resolving single audit
findings related to its Disability
programs. The Department of Labor
and Workforce Development (LWD) is
the New Jersey Disability
Determination Services’ (DDS) parent
agency.
MEMORANDUM
Date:      August 7, 2014                                                           Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of New Jersey for the Fiscal Year Ended June 30, 2013
           (A-77-14-00017)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of New Jersey for the Fiscal Year ended June 30, 2013. 1 Our objective was to report
           internal control weaknesses, noncompliance issues, and unallowable costs identified in the single
           audit to SSA for resolution action.

           KPMG LLP and the New Jersey State Auditor conducted the audit. The results of the desk
           review conducted by the Department of Health and Human Services (HHS) concluded that the
           audit met Federal requirements. In reporting the results of the single audit, we relied entirely on
           the internal control and compliance work performed by KPMG LLP and the New Jersey State
           Auditor and the reviews performed by HHS. We conducted our review in accordance with the
           Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection
           and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The New Jersey Disability Determination Services (DDS) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
           reimbursed for 100 percent of allowable costs. The Department of Labor and Workforce
           Development (LWD) is the New Jersey DDS’ parent agency.

           The single audit reported that LWD did not submit to SSA the Form SSA-871 State Agency
           Schedule for Equipment Purchases for SSA Disability Programs for the quarters ending




           1
            State of New Jersey Single Audit Report Year ended June 30, 2013
           http://www.nj.gov/treasury/omb/finmgmt/Single_Audit/13Report.pdf (last viewed August 4, 2014).
Page 2 - Gary S. Hatcher

September 30, 2012, December 31, 2013, March 31, 2013, and June 30, 2013. 2 The corrective
action plan indicated the Forms SSA-871 were subsequently submitted to SSA. We recommend
that SSA verify that LWD implemented appropriate procedures to ensure timely submission of
the Form SSA-871.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                            Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. at finding 2013-017.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
